No. •

^ m

October Term 2020
IN THE SUPREME COURT OF THE UNITED STATES

EGLISE BAPTISTE BETHANIE DE FT.
LAUDERDALE, INC., etc., et al„
Petitioners,
v.
THE SEMINOLE TRIBE OF FLORIDA,
et al.,
Respondents.

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT, CASE NO. 20-10173
LAWRENCE R. METSCH
Counsel of Record
Fla. Bar No. 133162
Metschlaw, P.A.
20801 Biscayne Blvd., Suite 300
Aventura, FL 33180-1423
Telephone: (305) 792-2540
Telecopier: (305) 792-2541
E-Mail: l.metsch@metsch.com
November 27, 2020

QUESTIONS PRESENTED
Six members of a reservation-based tribal police force, while in uniform, using
a marked vehicle and carrying departmental firearms, during a sabbath service
intervened in an off-reservation dispute over the leadership of a church and installed
a dissident faction of the congregation.
This petition presents two significant questions:
(1) Is a Native American tribe sovereignly immune from a civil suit for
damages caused by the off-reservation violations by its police officers of the
“place of religious worship” provisions of the Freedom of Access To Clinic
Entrances Act of 1994, 18 U.S.C. § 248(a)(2) (“the Access Act”)?
(2) Are the “place of religious worship” and civil remedies provisions of
the Access Act, as applied to a congregational leadership dispute, unenforceable
because those provisions violate the Establishment of Religion and Free
Exercise of Religion Clauses of the First Amendment to the United States
Constitution?
The Court of Appeals and the District Court answered the foregoing questions
in the affirmative.
The former question was reserved for future resolution in Footnote 8 of Justice
Kagan’s opinion for the Court in Michigan v. Bay Mills Indian Community, 572 U.S.
782, 799 (2014):
We have never, for example, specifically addressed (nor, so
far as we are aware, has Congress) whether immunity
should apply in the ordinary way if a tort victim, or other
2

plaintiff who has not chosen to deal with a tribe, has no
alternative way to obtain relief for off-reservation
commercial conduct. The argument that such cases would
present a “special justification” for abandoning precedent is
not before us...(Citation omitted)1
As to the latter question, with the exception of the Court of Appeals’ decision in
this controversy, no court has held that the “place of religious worship” and civil
remedies provisions of the Access Act are unenforceable because they violate the
Establishment of Religion and Free Exercise of Religion Clauses of the First
Amendment to the United States Constitution. Indeed, the Eleventh Circuit in this
case so held even though, in Cheffer v. Reno, 55 F. 3d 1517, 1522-1523 (11th Cir. 1995)
it had upheld the abortion clinic provisions of the Access Act against an attack
premised upon the Free Exercise of Religion Clause of the First Amendment and the
Religious Freedom Restoration Act of 1993, 42 U.S.C. §§ 2000bb-2 to 2000bb-4.
The U.S. Department of Justice, sub silentio, declined Petitioners’ invitation to

The Chief Justice, in his concurring opinion in Upper Skagit Indian Tribe v.
Lundgren,__ U.S.
138 S. Ct. 1649, 1656 (2018), observed:
I do not object to the Court’s determination to forgo
consideration of the immovable-property rule at this time.
But if it turns out that the rule does not extend to tribal
assertions of rights in non-trust, non-reservation property,
the applicability of sovereign immunity in such
circumstances would, in my view, need to be addressed in a
future case. See, Michigan v. Bay Mills Indian Community,
572 U.S. 782, 799, n. 8 (2014) (reserving the question
whether sovereign immunity would apply if a “plaintiff who
has not chosen to deal with a tribe [ ] has no alternative way
to obtain relief for off-reservation commercial conduct”).

3

defend, before the Court of Appeals, the constitutionality of the “place of religious
worship” provisions of the Access Act against an “as applied” attack under the
Establishment and Free Exercise Of Religion Clauses of the First Amendment to the
Constitution. Consequently, the Court of Appeals’ refusal, in this case, to enforce the
“place of religious worship” provisions of the Access Act came about without the
involvement of the Department of Justice.
The (a) extra-territorial scope of Native American tribal sovereign immunity
from civil litigation and (b) constitutionality, as applied, of the “place of religious
worship” provisions of the Access Act are significant issues warranting the issuance of
a Writ of Certiorari to the Eleventh Circuit.

4

TABLE OF CONTENTS
Page

COVER PAGE

1

QUESTIONS PRESENTED

2

TABLE OF CONTENTS

5

TABLE OF AUTHORITIES

6

PARTIES TO THE PROCEEDINGS BELOW

7

PETITION FOR WRIT OF CERTIORARI

8

CITATIONS TO OPINIONS BELOW

.8

STATEMENT OF JURISDICTION.

9

STATEMENT OF THE FACTS AND PROCEDURAL
HISTORY..........................................................

10

REASONS FOR GRANTING THE PETITION.

19

CONCLUSION

20

CERTIFICATE OF SERVICE.

21

5

TABLE OF AUTHORITIES
Pages
UNITED STATES CONSTITUTION
First Amendment

2, 3,4,16,16f,19

FEDERAL STATUTES
18 U.S.C. § 248

2,3,4,10f,llf

28 U.S.C. § 1254(1)

9

FEDERAL RULES OF CIVIL PROCEDURE
Rule 12(b)(1)

16

Rule 12(b)(6)

16

CASES
Cheffer v. Reno, 55 F. 3d 1517 (11th Cir. 1995)

3

Eglise Baptiste Bethanie De Ft. Lauderdale, Inc. v.
Seminole Tribe of Florida, 824 Fed. Appx. 680,
2020 U.S. App. LEXIS 25205 (11th Cir. 2020)...

8,17,18

Eglise Baptiste Bethanie De Ft. Lauderdale, Inc. v.
Seminole Tribe of Florida, 2020 U.S. Dist. LEXIS
617, 2020 WL 43221 (S.D. Fla. 2020).....................

8,16

K.M. ex rel. D.M. u. Publix Super Markets, Inc., 895 So. 2d
1114 (Fla. 4th DCA 2005)..............................................

13f

Michigan v. Bay Mills Indian Community, 572 U.S.
782 (2014)...........................................................

2,3,19

Roman Catholic Diocese of Brooklyn, New York v.
Cuomo, 592 U.S.__ (Matter No. 20A87, November
25, 2020).........................................................................

13f

Upper Skagit Indian Tribe v. Lundgren,__ U.S.
138 S. Ct. 1649 (2018)..................................

3f

6

PARTIES TO THE PROCEEDINGS BELOW
Petitioner Eglise Baptiste Bethanie De Ft. Lauderdale, Inc., a Florida not-forprofit corporation ( Eglise Baptiste”), is the owner of the “place of religious worship”
located at 2200 N.W. 12th Avenue, Fort Lauderdale, Florida 33311, and was the
corporate plaintiff in Case No. 19-CV-62591-Bloom, U.S. District Court for the
Southern District of Florida (“Case No. 19-62591"), and the corporate appellant in Case
No. 20-10173, U.S. Court of Appeals for the Eleventh Circuit (“Case No. 20-10173").
Petitioners Andy Saint-Remy, et al., the members of Eglise Baptiste who on
September 29, 2019, were expelled from and thereafter denied access to the “place of
religious worship”, were the individual plaintiffs in Case No. 19-62591 and the
individual appellants in Case No. 20-10173.
Respondent The Seminole Tribe of Florida (“Sem Tribe”), whose police officers
provided the muscle for the seizure of the “place of religious worship”, was the
corporate defendant in Case No. 19-62591 and the corporate appellee in Case No. 2010173.
Respondents Aida Auguste, et al. (“Auguste”), comprising the dissident faction
of Eglise Baptiste, were the individual defendants in Case No. 19-62591 and the
individual appellees in Case No. 20-10173.

7

PETITION FOR WRIT OF CERTIORARI
Petitioners pray that a Writ of Certiorari issue to review the decision of the
Eleventh Circuit in Case No. 20-10173.

CITATIONS TO OPINIONS BELOW
A copy of the August 10, 2020, [unpublished] opinion of the Court of Appeals in
Case No. 20-10173, reported as Eglise Baptiste Bethanie De Ft. Lauderdale, Inc. v.
Seminole Tribe of Florida, 824 Fed. Appx. 680, 2020 U.S. App. LEXIS 25205, is
Attachment “A”to this Petition.
A copy of the January 3, 2020, Omnibus Order of the District Court in Case No.
19-CV-62591-BB, reported as Eglise Baptiste Bethanie De Ft. Lauderdale, Inc. u.
Seminole Tribe of Florida, 2020 U.S. Dist. LEXIS 617, 2020 WL 43221, is Attachment
“B” to this Petition.

8

STATEMENT OF JURISDICTION
The Court’s subject-matter jurisdiction exists by virtue of 28 U.S.C. § 1254(1).
The Eleventh Circuit issued its decision on August 10, 2020. Pursuant to the Court’s
order of March 19, 2020, concerning the COVID-19 public health emergency,
Petitioners have 150 days from August 10, 2020, in which to petition the Court for the
issuance of a Writ of Certiorari to the Eleventh Circuit.

9

STATEMENT OF THE FACTS AND PROCEDURAL HISTORY
In their First Amended Complaint to the District Court, filed December 1, 2019
[ECF #21], Petitioners in pertinent part alleged:
1. This is a civil action for damages under 18 U.S.C. §
248(c)(1)2 (Counts 1 and 4-83) for which subject-matter

2

Section 248, Title 18, United States Code, is entitled Freedom of access
to clinic entrances. In pertinent part, it provides:
(a) Prohibited activities- Whoever*

*

*

*

*

*

*

(2) by force or threat of force or by physical
obstruction, intentionally injures, intimidates
or interferes with or or attempts to injure,
intimidate or interfere with any person
lawfully exercising or seeking to exercise the
First Amendment right of religious freedom at
a place of religious worship;
*

*

*

*

*

*

*

Shall be subject to the penalties provided in subsection (b)
and the civil remedies provided in subsection (c), except that
a person or legal guardian of a minor shall not be subject to
any penalties or civil remedies under this section for such
activities insofar as they are directed exclusively at that
minor.
*

*

*

*

*

*

(c) Civil remedies(1) Rights of action(A) In general.- Any person aggrieved by
reason of the conduct prohibited by subsection
(a) may commence a civil action for the relief
10

jurisdiction exists by virtue of 28 U.S.C. §§ 1331 and
1343(a)...
EGLISE BAPTISTE
2. Eglise Baptiste is (a) a Florida not-for-profit corporation,
(b) a Haitian Baptist church and (c) affiliated with the
Southern Baptist Convention. It adheres to the
congregationalist mode of Christian church governance.
Eglise Baptiste’s principal place of business is located at
2200 N.W. 12th Avenue, Fort Lauderdale, Broward County,
Florida 33311, and it possesses fee simple title to the
approximately ten (10) acres of improved real property
commonly known by the foregoing address and bearing Tax
Identification Number 4942-28-32-0010 (“the Church
Property”). The Church Property is located 11.1 miles from
SemTribe’s reservation in Hollywood, Florida.
THE DEFENDANTS
3. SemTribe is a Native American tribe which has been

set forth in subparagraph (B)... and such an
action may be brought under subsection (a)(2)
only by a person lawfully exercising or seeking
to exercise the First Amendment right of
religious freedom at a place of religious
worship or by the entity that owns or operates
such place of religious worship.
(B) Relief. - In any action under subparagraph
(A), the court may award appropriate relief,
including temporary, preliminary or
permanent injunctive relief and compensatory
and punitive damages, as well as the costs of
suit and reasonable fees for attorneys and
With respect to
expert witnesses,
compensatory damages, the plaintiff may
elect, at any time prior to the rendering of
final judgment, to recover, in lieu of actual
damages, an award of statutory damages in
the amount of $5,000 per violation.
11

recognized by the United States Department of the Interior
pursuant to 25 U.S.C. § 5123. The Supreme Court of the
United States has characterized the several Native
American tribes, including SemTribe, as “dependent
domestic sovereigns”, SemTribe owns and maintains
reservation in Hollywood, Florida, and is governed by a
Tribal Counsel, which is established by the Constitution
And Bylaws of SemTribe. The Seminole Police Department
(“the SPD”) is an agency of SemTribe and operates under
the supervision of the Tribal Council.
4. [Defendant Aida] Auguste is a resident of Broward
County, Florida. She is not subject to any legal disabilities.

THE FACTS
7. Prior to his death on July 26, 2014, the Pastor of Eglise
Baptise was the Rev. Usler Auguste (“Pastor Auguste”).
Since then, the Board of Directors of Eglise Baptiste and
Auguste (the widow of Pastor Auguste) have contended for
the leadership of Eglise Baptiste.
8. On Sunday, September 22, 2019, a meeting of the
congregation of Eglise Baptiste was convened for the
purpose of approving a process for the selection and
installation of a successor to the late Pastor Auguste.
Despite the peacemaking efforts of a mediator assigned to
Eglise Baptiste by an affiliate of the Southern Baptist
Convention, the September 22, 2019, congregational
meeting devolved into a pushing, shoving and punching
affair between the supporters of the Board of Directors and
the supporters of Auguste. The Fort Lauderdale Police
Department was summoned and its officers helped to
restore order.
9. Eglise Baptiste, on September 24, 2019, filed a civil
action for declaratory and injunctive relief against Auguste
and her supporters in the Circuit Civil Division,
Seventeenth Circuit Court, Broward County, Florida, which
came to be styled Eglise Baptiste Bethanie De Ft.
Lauderdale, Inc. v. Aida Auguste, et al., Case No. CACE-1912

19270 (4) (“Case No. 19-19270"). Undersigned counsel for
Plaintiffs in this action commenced and continues to
represent Eglise Baptiste in Case No. 19-19270.
10. On Sunday morning, September 29, 2019, Eglise
Baptiste conducted its weekly Sabbath services in the
religious structure located on the Church Property. While
those services were in progress, Auguste and her supporters,
escorted by six (6) armed (with SPD-issued handguns)
officers wearing SPD uniforms (who had traveled from
SemTribe’s reservation in two vehicles, one of them an SPD
marked squad car),3 without judicial or other valid
authorization: (a) entered the Church Property, (b) disabled
the Church Property’s surveillance cameras (c) expelled
from the Church Property all the worshipers who opposed
Auguste, (d) changed the locks to the doors of the religious
structure located on the Church Property, (e) seized the
business records of Eglise Baptiste and (f) locked the gates
to the Church Property. Auguste and her supporters
continue to occupy the Church Property to the exclusion of
Plaintiffs and to control Eglise Baptiste’s personal property,
including Eglise Baptiste’s bank accounts.
11. The judicial doctrine of tribal sovereign immunity does
not insulate SemTribe from the claims which Plaintiffs have
asserted against SemTribe in this civil action because: (a)
the actions of SemTribe’s police officers took place more
than eleven (11) miles from SemTribe’s Hollywood, Florida,
reservation, (b) prior to September 29, 2019, Plaintiffs had
not had an opportunity to negotiate with SemTribe for a
waiver of SemTribe’s tribal sovereign immunity; and (c)
other than through this civil action, Plaintiffs have no
means by which to secure monetary compensation for
SemTribe’s infringements of Plaintiffs’ rights under Federal
and Florida law.

3 Because SemTribe’s personal property was used by the SPD officers who
entered the Church Property on September 29, 2019, SemTribe should be held
vicariously liable in compensatory and punitive damages to Plaintiffs. See, K.M. ex
rel. D.M. v. Publix Super Markets, Inc., 895 So. 2d 1114 (Fla. 4th DCA 2005).
13

PLAINTIFFS’ CLAIMS FOR RELIEF
Count 1-Eglise Baptiste v. SemTribe and Auguste/18 U.S.C. § 248(c)(1)
Eglise Baptiste sues SemTribe and Auguste and alleges:
12. Eglise Baptiste realleges and incorporates by reference
the matters set forth in ^ 1 through 11 of this First
Amended Complaint.
13. SemTribe and Auguste on September 29, 2019, violated
18 U.S.C. § 248(a)(2) when SemTribe’s police officers and
Auguste, by force or threat of force or by physical
obstruction, intentionally injured, intimidated or interfered
with, or attempted to injure, intimidate or interfere with
Eglise Baptiste’s exercising or seeking to exercise the First
Amendment right of religious freedom at a place of religious
worship.
14. Eglise Baptiste has been compelled to engage the
professional services of Metschlaw, P.A., for the purposes of
preparing, commencing and prosecuting to final judgment
this civil action. In that regard, Eglise Baptiste has
obligated itself to pay that law firm reasonable attorneys’
fees and to reimburse that law firm’s necessary, out-ofpocket, non-overhead expenditures incurred during the
prosecution of this civil action.
15. As the proximate result of the foregoing conduct of
SemTribe and Auguste on September 29, 2019, Eglise
Baptiste has sustained injuries and losses for which,
pursuant to 18 U.S.C. § 248(c)(1), Eglise Baptiste is entitled
to recover from SemTribe and Auguste compensatory
damages, punitive damages, the costs of this civil action,
attorneys’ fees and expert witness fees.
Wherefore, Eglise Baptiste demands judgment, jointly and
severally, against SemTribe and Auguste for compensatory
and punitive damages and awarding Eglise Baptiste the
costs of this civil action, attorneys’ fees and expert witness
fees.

14

Count 71- Andy Saint-Remy v. SemTribe and Auguste/18 U.S.C. § 248(c)(1)
Plaintiff Any Saint-Remy sues SemTribe and Auguste and
alleges:
357. Plaintiff Andy Saint-Remy realleges the matters set
forth in ^ 1 through 11 of this First Amended Complaint.
358. Plaintiff Andy Saint-Remy (a) is a resident of Broward
County, Florida, (b) is a member of Eglise Baptiste, (c) is not
subject to any legal disabilities, (d) attended the September
29, 2019, Sabbath services in the religious structure located
on the Church Property, (e) was expelled from the Church
Property by SemTribe’s police officers, and (f) continues to
be excluded from the Church Property by Auguste and her
supporters.
359. SemTribe and Auguste on September 29,2019, violated
18 U.S.C. § 248(a)(2) when SemTribe’s police officers and
Auguste, by force or threat of force or by physical
obstruction, intentionally injured, intimidated or interfered
with, or attempted to injure, intimidate or interfere with
Plaintiff Andy Saint-Remy’s exercising or seeking to
exercise the First Amendment right of religious freedom at
a place of religious worship.
360. Plaintiff Andy Saint-Remy has been compelled to
engage the professional services of Metschlaw, P.A., for the
purposes of preparing, commencing and prosecuting to final
judgment this civil action. In that regard, Plaintiff Andy
Saint-Remy has obligated himself/herself to pay that law
firm reasonable attorneys’ fees and to reimburse that law
firm’s necessary, out-of-pocket, non-overhead expenditures
incurred during the prosecution of this civil action.
361. As the proximate result of the foregoing conduct of
SemTribe and Auguste on September 29, 2019, Plaintiff
Andy Saint-Remy has sustained injuries and losses for
which, pursuant to 18 U.S.C. § 248(c)(1), Plaintiff Andy
Saint-Remy is entitled to recover from SemTribe and
Auguste compensatory damages, punitive damages, the
costs of this civil action, attorneys’ fees and expert witness
fees.
15

Wherefore, Plaintiff Andy Saint-Remy demands judgment,
jointly and severally, against SemTribe and Auguste for
compensatory and punitive damages and awarding Plaintiff
Andy Saint-Remy the costs of this civil action, attorneys’
fees and expert witness fees.
On December 11, 2019, Auguste moved pursuant to Rule 12(b)(6), Federal Rules
of Civil Procedure, to dismiss the First Amended Complaint for failure to state a claim
upon which relief could be granted. [ECF 26] In that dismissal motion, Auguste
contended that enforcement of the “place of religious worship” and civil remedies
provisions of the Access Act would violate the Establishment of Religions and Free
Exercise of Religions Clauses of the First Amendment to the United States
Constitution.
SemTribe, on December 13, 2019, moved pursuant to Rule 12(b)(1), Federal
Rules of Civil Procedure, to dismiss the First Amended Complaint for lack of subjectmatter jurisdiction. [ECF 28] In that dismissal motion, SemTribe contended that it was
protected from suit by Native American sovereign tribal immunity, even though the
alleged misconduct of SemTribe’s police officers had taken place off-reservation.
The District Court, in an Omnibus Order, on January 3, 2020, granted the
foregoing dismissal motions. [ECF 50] A Final Judgment of dismissal was entered on
January 9, 2020. [ECF 54] Petitioners filed their Notice of Appeal on January 14, 2020.

4 The First Amendment to the United States Constitution provides:
Congress shall make no law respecting an establishment of religion,
prohibiting the free exercise thereof; or abridging the freedom of
speech, or of the press; or of the right of the people peaceably to
assemble, and to petition the Government for a redress of grievances.
16

[ECF 55]
The Eleventh Circuit, on August 20, 2020, in an unpublished decision, affirmed
the District Court’s dismissal of Petitioners’ claims. Sustaining SemTribe’s claim of
tribal sovereign immunity, the Court of Appeals stated:
“Indian tribes benefit from the same common-law immunity
from suit traditionally enjoyed by sovereign powers.”...
However, tribal sovereign immunity is not absolute; tribes
are “domestic dependent nations” and “are subject to
plenary control by Congress.”... Therefore, suits against
tribal entities are barred by tribal sovereign immunity,
“unless the plaintiff shows either a clear waiver of that
immunity by the tribe, or an express abrogation of the
doctrine by Congress.”
Here, the underlying suit fails to satisfy either prerequisite
and is thus barred. First, everyone agrees Seminole Tribe
did not expressly waive immunity from suit... (“[W]aivers of
tribal sovereign immunity cannot be implied on the basis of
a tribe’s actions, but must be unequivocally expressed.” And
second. § 248 does not evidence any clear and unequivocal
Congressional intent to abrogate tribal sovereign
immunity... (“[C]ongressional abrogation must come from
“the definitive language of the statute itself’[;]...
“Legislative history and inferences from general statutory
language are insufficient.’”).
That the plaintiffs allege criminal violations under § 248
cannot change our conclusion; where tribal sovereign
immunity applies, it “bars actions against tribes regardless
of the type of relief sought.”... Also unavailing is the
plaintiffs’ contention that tribal sovereign immunity i^s
inapplicable here because the alleged conduct occurred offreservation. “To date, [the Supreme Court has] sustained
tribal immunity from suit without drawing a distinction
based on where the tribal activities occurred” nor has the
Court “drawn a distinction between governmental and
commercial activities of a tribe.”

17

In short, Congress knows how to expressly subject an Indian
tribe to private suit in state or federal court; it did not do so
when it enacted § 248... Seminole Tribe is entitled to tribal
sovereign immunity and was appropriately dismissed from
this suit. (Citations omitted)
Eleventh Circuit Opinion, pp. 2-4.
Addressing the First Amendment question, the Eleventh Circuit reasoned:
The plaintiffs claim that the district court erred in
dismissing the claims against Auguste because their claimrather than involving ecclesiastical disputes- is merely a
property dispute. That framing ignores two threshold
issues. Before reaching the plaintiffs’ § 248 claim, a court
would need to determine whether Auguste was the rightful
successor to the church’s leadership and, if she was, whether
Auguste had the authority to exclude the plaintiffs from the
church’s property. Answering these questions would require
us to inquire whether church rules, policies, and decision­
making and questions of church governance are manifestly
ecclesiastical... (“[Questions of church discipline and the
composition of the church hierarchy are at the core of
ecclesiastical concerns.”) (Citations omitted)
Auguste’s decision to exclude the plaintiffs from the church
property and the related events are part and parcel of
ecclesiastical concerns (e.g., matters of church governance,
administration and membership). The adjudication of these
issues would “excessively entangl[e] [us] in questions of
ecclesiastical doctrine or belief’- the very types of questions
we are commanded to avoid...
Eleventh Circuit Opinion, pp. 5-6.

18

REASONS FOR GRANTING THE PETITION
By means of Footnote 8 to the majority opinion in Michigan v. Bay Mills Indian
Community, supra, the Court reserved for future decision the precise question
concerning Native American tribal sovereign immunity which is presented in this case:
is SemTribe immune from suit for damages arising from its police officers’ offreservation violations of the “place of religious worship” provision of the Access Act?
For this reason alone, the foregoing Petition for Writ of Certiorari should be granted.
The “place of religious worship” provision of the Access Act was congressionally
intended to enhance the protections afforded to worshipers by the Establishment of
Religion and Free Exercise of Religion Clauses of the First Amendment to the United
States Constitution. Instead, in this case, the Court of Appeals stood the First
Amendment on its head by invoking it as the constitutional basis for refusing to apply
the “place of religious worship” provision of the Access Act to the threat of force by
means of which Auguste and SemTribe’s police officers, on September 29, 2019,
expelled Petitioners from, and seized control of, the Church Property. Because the
Court of Appeals’ misapplication of the First Amendment cannot be ignored, the
foregoing Petition for Writ of Certiorari should be granted.5

5 The pre-eminence of the protections afforded to individuals who seek to
gather in “places of religious worship” by the First Amendment’s Free Exercise of
Religion Clause was recently confirmed by the Court’s issuance of an injunction
barring the enforcement of the portion of the Governor of New York’s Executive
Order 202.68 which imposed COVID-19-related occupancy limits on places of
religious worship. Roman Catholic Diocese Of Brooklyn, New York v. Cuomo, 592
U.S.__ (Matter No. 20A87, November 25, 2020).
19

CONCLUSION
The foregoing Petition for Writ of Certiorari to the United States Court of
Appeals for the Eleventh Circuit, Case No. 20-10173, should be granted.
Respectfully submitted,
METSCHLAW, P.A.
Attorneys for Petitioners
20801 Biscayne Blvd., Suite 300
Aventura, FL 33180-1423
Telephone: (305) 792-2540
Telecopier: (305) 792-25^1
/
itsch@ndetsjagi.cQm
E-Mail:,

7/’ n
7a i• r'n
'•7

/

n

/L

i

\

LAWRENCE R. METSCH
FBN 133162

20

/\

CERTIFICATE OF SERVICE
I hereby certify that true copies of the foregoing petition have been electronically
served this 27th day of November, 2020, on:
Mark D. Schellhase, Esq, (mark.schellhase@arav-robinson.com-)
Emily Lauren Pineless, Esq. (Emilv.nineless@grav-robinson.com-)
GrayRobinson, P.A.
225 N.E. Mizner Blvd., Suite 500
Boca Raton, FL 33432-4086
E-Mail: ingrid.reichel@grav-robinson.com
March C. Johnson, Esq. (MJ@JohnsonDalal.com-)
Abdul-Sumi Dalai, Esq. (AD@JohnsonDala 1.com-)
Johnson | Dalai
111 North Pine Island Road. Suite 103
Plantation, FL 33324
E-Mail: JT@JohnsonDalal.com-)
E-Mail: service@JohnsonDalal.com „

LAWRENCE R.METSCH

21

I

22

ATTACHMENT

USCA11 Case: 20-10173

Date Filed: 08/10/2020

Page: 1 of 6

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10173
Non-Argument Calendar
D.C. Docket No. 0:19-cv-62591-BB

EGLISE BAPTISTE BETHANIE DE FT. LAUDERDALE, INC
a Florida Not-For-Profit Corporation,
ANDY SAINT-REMY,
Plaintiffs-Appellants,
versus
SEMINOLE TRIBE OF FLORIDA,
AIDE AUGUSTE,
Defendants-Appellees.

Appeal from the United States District Court
for the Southern District of Florida
(August 10, 2020)
Before WILSON, MARTIN, and ANDERSON, Circuit Judges.
PER CURIAM:

USCA11 Case: 20-10173

Date Filed: 08/10/2020

Page: 2 of 6

Before the district court, Eglise Baptise Bethanie De Ft. Lauderdale, Inc.,
and Andy Saint-Remy (plaintiffs) sued the Seminole Tribe of Florida and Aide
Auguste (defendants), alleging various causes of action including claims under 18
U.S.C. § 248. The Tribe moved for dismissal under Federal Rule of Civil
Procedure 12(b)(1) for lack of subject matter jurisdiction, arguing that, because it
is a federally recognized Indian tribe, it was entitled to tribal sovereign immunity.
Auguste sought dismissal as well and argued, in part, that the plaintiffs’ allegations
involved non-justiciable questions of internal church governance. The district
court agreed with the defendants and dismissed the action. This appeal followed.
We affirm the district court.
DISCUSSION
I.
We write for the benefit of the parties and thus assume their familiarity with
the facts. Turning to the merits, we consider first the district court’s dismissal of
the plaintiffs’ claims against the Tribe. We review a district court’s dismissal of a
complaint due to tribal sovereign immunity de novo. Furry v. Miccosukee Tribe of
Indians of Fla., 685 F.3d 1224, 1227-28 (11th Cir. 2012).
“Indian tribes benefit from the same common-law immunity from suit
traditionally enjoyed by sovereign powers.” Williams v. Poarch Band of Creek
Indians, 839 F.3d 1312, 1317 (11th Cir. 2016) (internal quotation mark omitted).

2

USCA11 Case: 20-10173

Date Filed: 08/10/2020

Page: 3 of 6

However, tribal sovereign immunity is not absolute; tribes are “domestic
dependent nations” and “are subject to plenary control by Congress.” Michigan v.
Bay Mills Indian Cmty., 572 U.S. 782, 788 (2014). Therefore, suits against tribal
entities are barred by tribal sovereign immunity, “unless the plaintiff shows either a
clear waiver of that immunity by the tribe, or an express abrogation of the doctrine
by Congress.” Williams, 839 F.3d at 1317.
Here, the underlying suit fails to satisfy either prerequisite and is thus
barred. First, everyone agrees Seminole Tribe did not expressly waive immunity
from suit. See Sanderlin v. Seminole Tribe ofFla., 243 F.3d 1282, 1286 (11th Cir.
2001) (“[Wjaivers of tribal sovereign immunity cannot be implied on the basis of a
tribe’s actions, but must be unequivocally expressed.”). And second, § 248 does
not evidence any clear and unequivocal Congressional intent to abrogate tribal
sovereign immunity. See Furry, 685 F.3d at 1233 (“[Congressional abrogation
must come from ‘the definitive language of the statute itself [;] . .. ‘legislative
history and inferences from general statutory language are insufficient.’”).
That the plaintiffs allege criminal violations under § 248 cannot change our
conclusion; where tribal sovereign immunity applies, it “bars actions against tribes
regardless of the type of relief sought.” Freemanville Water Sys., Inc. v. Poarch
Band of Creek Indians, 563 F.3d 1205, 1208 (11th Cir. 2009). Also unavailing is
the plaintiffs’ contention that tribal sovereign immunity is inapplicable here
3

USCA11 Case: 20-10173

Date Filed: 08/10/2020

Page: 4 of 6

because the alleged conduct occurred off-reservation. “To date, [the Supreme
Court has] sustained tribal immunity from suit without drawing a distinction based
on where the tribal activities occurred” nor has the Court “drawn a distinction
between governmental and commercial activities of a tribe.” Kiowa Tribe of Okla.
v. Mfg. Techs., Inc., 523 U.S. 751, 754-55 (1998); see also Bay Mills Indian Cmty.,
572 U.S. at 800 (discussing Kiowa and quoting its relevant holding).
In short, Congress knows how to expressly subject an Indian tribe to private
suit in state or federal court; it did not do so when it enacted § 248. See Furry, 685
F.3d at 1233. Seminole Tribe is entitled to tribal sovereign immunity and was
appropriately dismissed from this suit.
II.
Next, we turn to the plaintiffs’ claims against Auguste. We review de novo
a district court’s legal conclusions underlying its dismissal of a complaint for lack
of jurisdiction, and we review the district court’s “findings of jurisdictional facts
for clear error.” Houston v. Marod Supermarkets, Inc., 733 F.3d 1323, 1328 (11th
Cir. 2013).
“[Rjeligious controversies are not the proper subject of civil court inquiry.”
Serbian E. Orthodox Diocese for U.S. and Can. v. Milivojevich, 426 U.S. 696, 713
(1976). We have long recognized that both the Establishment and Free Exercise
Clauses require a “prohibition on judicial cognizance of ecclesiastical disputes.”
4

USCA11 Case: 20-10173

Date Filed: 08/10/2020

Page: 5 of 6

Crowder v. S. Baptist Convention, 828 F.2d 718, 721 (11th Cir. 1987). “By
adjudicating religious disputes, civil courts risk affecting associational conduct and
thereby chilling the free exercise of religious beliefs.” Id. And “by entering into a
religious controversy and putting the enforcement power of the state behind a
particular religious faction, a civil court risks ‘establishing’ a religion.” Id.
The interplay between these two constitutional provisions generally requires
that we refrain from adjudicating matters involving “theological controversy,
church discipline, ecclesiastical government, or the conformity of the members of
the church to the standard of morals required of them.” Id. at 722. Moreover, we
“are bound to accept the decisions of the highest judicatories of a religious
organization of hierarchical polity on matters of discipline, faith, internal
organization, or ecclesiastical rule, custom, or law.” Milivojevich, 426 U.S. at 713.
The plaintiffs claim that the district court erred in dismissing the claims
against Auguste because their claim—rather than involving ecclesiastical
disputes—is merely a property dispute. That framing ignores two threshold issues.
Before reaching the plaintiffs’ § 248 claim, a court would need to determine
whether Auguste was the rightful successor to the church’s leadership and, if she
was, whether Auguste had the authority to exclude the plaintiffs from the church’s
property. Answering these questions would require us to inquire into church rules,
policies, and decision-making and questions of church governance are manifestly
5

USCA11 Case: 20-10173

Date Filed: 08/10/2020

Page: 6 of 6

ecclesiastical. See id. at 717 (“[Questions of church discipline and the
composition of the church hierarchy are at the core of ecclesiastical concern.”).
Auguste’s decision to exclude the plaintiffs from church property and the
related events are part and parcel of ecclesiastical concerns (e.g., matters of church
governance, administration, and membership). The adjudication of these issues
would “excessively entangl[e] [us] in questions of ecclesiastical doctrine or
belief’—the very types of questions we are commanded to avoid. See Crowder,
828 F.2d at 722 (footnote omitted).
Summed up, the district court correctly determined that it could not
adjudicate the claim against Auguste because the dispute was “strictly and purely
ecclesiastical in its character.” SeeMilivojevich, 426 U.S. at 713. The claim
against Auguste was appropriately dismissed.
We therefore AFFIRM the district court’s dismissal of the plaintiffs’
complaint.

6

ATTACHMENT

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 1 of 23

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 19-cv-62591-BLOOM/Valle
EGLISE BAPTISTE BETHANIE DE
FT. LAUDERDALE, INC., and ANDY
SAINT-REMY,
Plaintiffs,
v.
SEMINOLE TRIBE OF FLORIDA and
AIDA AUGUSTE,
Defendants.
OMNIBUS ORDER
THIS CAUSE is before the Court upon Defendant Seminole Tribe of Florida’s
(“Defendant Seminole Tribe”) Motion to Dismiss, ECF No. [28] (the “Seminole Tribe’s Motion”),
Defendant Aida Auguste’s (“Defendant Auguste”) Motion to Dismiss, ECF No. [26] (“Auguste’s
Motion”), and Plaintiffs’1 Motion for Leave to File a Second Amended Complaint, ECF No. [25]
(“Motion to Amend”), (collectively, the “Motions”). The Court has carefully reviewed the
Motions, all opposing and supporting submissions, the record in this case, and the applicable law,
and is otherwise fully advised. For the reasons set forth below, the Seminole Tribe’s Motion is
granted; Auguste’s Motion is granted; and Plaintiffs’ Motion to Amend is denied.
I.

BACKGROUND
Plaintiffs initiated this action on October 17, 2019, asserting claims against Defendants

Aida Auguste and the Seminole Tribe of Florida (collectively, “Defendants”). ECF No. [1]. On
December 1, 2019, and with the Court’s permission, see ECF No. [15], Plaintiffs filed their
1 The First Amended Complaint in this action, ECF No. [21] (“Amended Complaint”), lists seventy-eight
named Plaintiffs, which the Court will refer to collectively as “Plaintiffs.”

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 2 of 23
Case No. 19-cv-62591-BLOOM/Valle
Amended Complaint, ECF No. [21], which asserts eighty-three counts: Counts 1 and 4-83 assert
violations of the Freedom of Access to Clinic Entrances, 18 U.S.C. § 248(a)(2) (“FACE Act”) by
each individual Plaintiff against Defendants; Count 2 asserts a claim of Interference with Business
Relationships by Plaintiff Eglise Baptiste Bethanie De Ft. Lauderdale, Inc. (“Eglise Baptiste”)
against Defendant Seminole Tribe; and Count 3 asserts a claim of Trespass by Eglise Baptiste
against Defendant Seminole Tribe. See generally ECF No. [21].
The Amended Complaint alleges that on July 26, 2014, the then-Pastor of Eglise Baptiste,
Reverend Usler Auguste (“Pastor Auguste”), passed away. ECF No. [21] ^ 7. Since then, the Board
of Directors of Eglise Baptiste and Defendant Auguste, Pastor Auguste’s widow, have contended
for the leadership of Eglise Baptiste. Id. On September 22, 2019, the congregation convened for a
meeting to approve the process for the selection and installation of Pastor Auguste’s successor. Id.
f 8. The congregational meeting ultimately “devolved into a pushing, shoving and punching affair
between the supporters of the Board of Directors and the supporters of [Defendant] Auguste,”
which necessitated police intervention to restore order. Id. On September 24, 2019, based on the
events that occurred at the congregational meeting, Eglise Baptiste filed a civil action for
declaratory and injunctive relief against Defendant Auguste and her supporters in the Circuit Court
of the Seventeenth Judicial Circuit in and for Broward County, Florida, which is ongoing. Id. *[ 9.
On September 29, 2019, “Eglise Baptiste conducted its weekly Sabbath services in the
religious structure located on the Church Property.” Id. ^110. While those services were in progress,
Defendant Auguste and her supporters, escorted by six armed officers from the Seminole Police
Department, and without judicial authorization entered church property, “disabled the Church
Property’s surveillance cameras,” “expelled from the Church Property all the worshipers who
opposed Auguste,” “changed the locks to the doors of the religious structure located on the Church
Property,” “seized the business records of Eglise Baptiste,” and “locked the gates to the Church
2

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 3 of 23

Case No. 19-cv-62591-BLOOM/Valle
Property.” Id. Defendant Auguste and her supporters continue to occupy the church property and
control Eglise Baptiste’s personal property, including its bank accounts. Id. Further, Defendant
Auguste and her supporters have continued to exclude Plaintiffs from the church property. Id.
The Amended Complaint also contains the following allegation:
The judicial doctrine of tribal sovereign immunity does not insulate [Defendant
Seminole Tribe] from the claims which Plaintiffs have asserted against [it] in this
civil action because: (a) the actions of [Defendant Seminole Tribe’s] police officers
took place more than eleven (11) miles from [Defendant Seminole Tribe’s]
Hollywood, Florida, reservation, (b) prior to September 29, 2019, Plaintiffs had not
had an opportunity to negotiate with [Defendant Seminole Tribe] for a waiver of
[its] tribal sovereign immunity; and (c) other than through this civil action,
Plaintiffs have no means by which to secure monetary compensation for [Defendant
Seminole Tribe’s] infringements of Plaintiffs’ rights under Federal and Florida law.
Id:][11.
In the Seminole Tribe’s Motion, Defendant Seminole Tribe argues that Plaintiffs’
Amended Complaint should be dismissed under Federal Rule of Civil Procedure 12(b)(1) for lack
of subject-matter jurisdiction because it is a federally recognized Indian tribe that is entitled to
tribal sovereign immunity. Plaintiffs filed a Response in Opposition. ECF No. [31]. Defendant
Seminole Tribe filed a Reply. ECF No. [35],
In Auguste’s Motion, Defendant Auguste seeks dismissal of Plaintiffs’ Amended
Complaint, arguing that it (1) fails to state a claim under Federal Rule of Civil Procedure 12(b)(6);
(2) involves non-justiciable questions of internal church governance; and (3) improperly attempts
to split causes of action. Plaintiffs filed their Response in Opposition, ECF No. [30], to which
Defendant Auguste filed a Reply. ECF No. [33],
Finally, in the Motion to Amend, Plaintiffs request leave to file a Second Amended
Complaint, ECF No. [25-1] (“Second Amended Complaint”), to correct typographical mistakes,
drop the claims of tortious interference and trespass, add a claim for injunctive relief, drop and add
certain individuals as Plaintiffs, and name seventeen additional individuals as Defendants.
3

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 4 of 23
Case No. 19-cv-62591-BLOOM/Valle
Defendants each filed their respective Responses in Opposition, ECF Nos. [27] & [29], to which
Plaintiffs filed a Reply, ECF No. [32]. In addition, Plaintiffs filed a Notice of Supplemental
Authority in support of their Motion to Amend, ECF No. [34], which cited to Crawford’s Auto
Center, Inc. v. State Farm Mutual Automobile Insurance Co., No. 17-12583, 2019 WL 6974428,
at *1 (11th Cir. Dec. 20, 2019).
II. LEGAL STANDARD
A. Rule 12(b)(1)
A motion brought pursuant to Federal Rule of Civil Procedure 12(b)(1) challenges the
district court’s subject-matter jurisdiction and takes one of two forms: a “facial attack” or a “factual
attack.” Lawrence v. Dunbar, 919 F.2d 1525, 1528-29 (11th Cir. 1990). “A ‘facial attack’ on the
complaint lrequire[s] the court merely to look and see if [the] plaintiff has sufficiently alleged a
basis of subject matter jurisdiction, and the allegations in his complaint are taken as true for the
purposes of the motion.McElmurrayv. Consol. Gov’t ofAugusta-Richmond Cty., 501 F.3d 1244,
1251 (11th Cir. 2007) (quoting Lawrence, 919 F.2d at 1529). “A ‘factual attack,’ on the other hand,
challenges the existence of subject matter jurisdiction based on matters outside the pleadings.”
Kuhlman v. United States, 822 F. Supp. 2d 1255, 1256-57 (M.D. Fla. 2011) (citing Lawrence, 919
F.2d at 1529); see Stalley ex rel. U.S. v. Orlando Reg’lHealthcare Sys., Inc., 524 F.3d 1229, 1233
(11th Cir. 2008) (“[A] factual attack on a complaint challenges the existence of subject matter
jurisdiction using material extrinsic from the pleadings, such as affidavits or testimony.”). Further,
the “[p]laintiff bears the burden of proving the existence of subject matter jurisdiction.” DesporteBryan v. Bank of Am., 147 F. Supp. 2d 1356, 1360 (S.D. Fla. 2001) (citing Boudreau v. United
States, 53 F.3d 81, 82 (5th Cir. 1995)).
“In assessing the propriety of a motion for dismissal under Fed.R.Civ.P. 12(b)(1), a district
court is not limited to an inquiry into undisputed facts; it may hear conflicting evidence and decide
4

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 5 of 23
Case No. 19-cv-62591-BLOOM/Valle
for itself the factual issues that determine jurisdiction.” Colonial Pipeline Co. v. Collins, 921 F.2d
1237, 1243 (11th Cir. 1991). As such, “[w]hen a defendant properly challenges subject matter
jurisdiction under Rule 12(b)(1) the district court is free to independently weigh facts, and ‘may
proceed as it never could under Rule 12(b)(6) or Fed.R.Civ.P. 56.’” Turcios v. Delicias Hispanas
Corp., 275 F. App’x 879, 880 (11th Cir. 2008) (quoting Mormon v. Am way Corp., 323 F.3d 920,
925 (11th Cir. 2003)).
B. Rule 12(b)(6)
Federal Rule of Civil Procedure 8 requires that a pleading contain “a short and plain
statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2).
Although a complaint “does not need detailed factual allegations,” it must provide “more than
labels and conclusions, and a formulaic recitation of the elements of a cause of action will not do.”
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007); see Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (explaining that Rule 8(a)(2)’s pleading standard “demands more than an unadorned, thedefendant-unlawfully-harmed-me accusation”). In the same vein, a complaint may not rest on
“‘naked assertion[s]’ devoid of‘further factual enhancement.’” Iqbal, 556 U.S. at 678 (alteration
in original) (quoting Twombly, 550 U.S. at 557). “Factual allegations must be enough to raise a
right to relief above the speculative level.” Twombly, 550 U.S. at 555. These elements are required
to survive a motion brought under Rule 12(b)(6) that requests dismissal for failure to state a claim
upon which relief can be granted.
When reviewing a motion under Rule 12(b)(6), a court, as a general rule, must accept the
plaintiff s allegations as true and evaluate all plausible inferences derived from those facts in favor
of the plaintiff. Miccosukee Tribe of Indians of Fla. v. S. Everglades Restoration All., 304 F.3d
1076, 1084 (11th Cir. 2002). However, this tenet does not apply to legal conclusions, and courts
“are not bound to accept as true a legal conclusion couched as a factual allegation.” Twombly, 550
5

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 6 of 23
Case No. 19-cv-62591 -BLOOM/Valle
U.S. at 555; see Iqbal, 556 U.S. at 678; Thaeter v. Palm Beach Cty. Sheriffs Office, 449 F.3d
1342, 1352 (11th Cir. 2006). Moreover, “courts may infer from the factual allegations in the
complaint ‘obvious alternative explanations,’ which suggest lawful conduct rather than the
unlawful conduct the plaintiff would ask the court to infer.” Am. Dental Ass 'n v. Cigna Corp., 605
F.3d 1283, 1290 (11th Cir. 2010) (quoting Iqbal, 556 U.S. at 682).
A court, in considering a Rule 12(b)(6) motion, “may consider only the complaint itself
and any documents referred to in the complaint which are central to the claims.” Wilchombe v.
TeeVee Toons, Inc., 555 F.3d 949, 959 (11th Cir. 2009) (citing Brooks v. Blue Cross & Blue Shield
ofFla., Inc., 116 F.3d 1364,1369 (11th Cir. 1997)); see also Maxcess, Inc. v. Lucent Techs., Inc.,
433 F.3d 1337, 1340 n.3 (11th Cir. 2005) (“[A] document outside the four comers of the complaint
may still be considered if it is central to the plaintiffs claims and is undisputed in terms of
authenticity.” (citing Horsley v. Feldt, 304 F.3d 1125, 1135 (11th Cir. 2002))).
C. Motion to Amend
Federal Rule of Civil Procedure 15 governs amended pleadings generally and provides that
“a party may amend its pleading only with the opposing party’s written consent or the court’s
leave,” which “[t]he court should freely give leave when justice so requires.” Fed. R. Civ. P.
15(a)(2). A plaintiff should be afforded the opportunity to test his claim on the merits as long as
the underlying facts or circumstances may properly warrant relief. Foman v. Davis, 371 U.S. 178,
182(1962),
“A district court need not, however, allow an amendment (1) where there has been undue
delay, bad faith, dilatory motive, or repeated failure to cure deficiencies by amendments previously
allowed; (2) where allowing amendment would cause undue prejudice to the opposing party; or
(3) where amendment would be futile.” Bryant v. Dupree, 252 F.3d 1161, 1163 (11th Cir. 2001).
The law in this Circuit is clear that “a district court may properly deny leave to amend the
6

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 7 of 23
Case No. 19-cv-62591-BLOOM/Valle
complaint under Rule 15(a) when such amendment would be futile.” Hall v. United Ins. Co. of
Am., 367 F.3d 1255, 1263 (11th Cir. 2004); see also Williams v. Bd. of Regents ofUniv. Sys. of
Ga., All F.3d 1282, 1292 n.6 (11th Cir. 2007) (same); Thompson v. City of Miami Beach, Fla.,
990F. Supp. 2d 1335,1343 (S.D. Fla. 2014) (“[A] district court may properly deny leave to amend
the complaint under Rule 15(a) when such amendment would be futile.” (citation omitted)).
Ultimately, whether to grant or deny leave to amend is within the discretion of the district court.
Foman, 371 U.S. at 182.
III. DISCUSSION
Defendant Seminole Tribe moves to dismiss Plaintiffs’ Amended Complaint for lack of
subject-matter jurisdiction under Rule 12(b)(1) due to its entitlement to tribal sovereign immunity.
Defendant Auguste also moves to dismiss Plaintiffs’ Amended Complaint pursuant to Rule
12(b)(6) because (1) Plaintiffs fail to sufficiently allege a claim under the FACE Act upon which
relief can be granted; (2) Plaintiffs’ claims involve non-justiciable questions of church governance;
and (3) the claims in the Amended Complaint constitute improper claim splitting. In addition,
Plaintiffs move for leave to file a Second Amended Complaint. The Court will address each Motion
in turn.
A. Defendant Seminole Tribe’s Motion to Dismiss
The Seminole Tribe’s Motion seeks dismissal of Plaintiffs’ Amended Complaint, arguing
that, absent any clear and unequivocal Congressional or tribal waiver, which is not present here,
Defendant Seminole Tribe is entitled to tribal sovereign immunity. Defendant Seminole Tribe
further argues that its entitlement to sovereign immunity applies in this case regardless of the
nature of the relief sought, the type of tribal actions challenged, or the location where the
challenged conduct occurred. Despite this immunity, Defendant Seminole Tribe argues that
Plaintiffs may still seek legal recourse against other individuals, as evidenced by Eglise Baptiste’s
7

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 8 of 23
Case No. 19-cv-62591-BLOOM/Valle
pending state court action. Plaintiffs, on the other hand, argue that Defendant Seminole Tribe is
not entitled to tribal sovereign immunity because the Amended Complaint alleges off-reservation
criminal conduct pursuant to § 248(c)(1). Thus, Plaintiffs contend that tribal sovereign immunity
does not extend to such off-reservation criminal conduct. In reply, Defendant Seminole Tribe notes
that Plaintiffs fail to cite to any law to support their assertions that tribal sovereign immunity would
not apply to the challenged conduct here. Likewise, Defendant Seminole Tribe asserts that
§ 248(c)(1) does not allow private individuals to initiate criminal prosecutions under the FACE
Act. Rather, the FACE Act only creates civil remedies for private individuals. As such, Defendant
Seminole Tribe contends that it is entitled to tribal sovereign immunity.
“Tribal sovereign immunity is a jurisdictional issue.” Furry v. Miccosukee Tribe ofIndians
ofFla., 685 F.3d 1224, 1228 (11th Cir. 2012). “[Ejven if a federal court has statutory jurisdiction,
Indian sovereign immunity is a ‘consideration [that] determines whether a court has jurisdiction to
hear an action.’” Inglish Interests, LLC v. Seminole Tribe of Fla., Inc., No. 2:10-cv-367-FtM29DNF,2011 WL 208289, at *2 (M.D. Fla. Jan. 21, 2011) (quoting Taylor v. Ala. Intertribal
Council, Title IV J.T.P.A., 261 F.3d 1032, 1034 (11th Cir. 2001)).
“Indian tribes[2] are ‘domestic dependent nations’ that exercise ‘inherent sovereign
authority.’” Michigan v. Bay Mills Indian Cmty., 572 U.S. 782, 788 (2014) (quoting Okla. Tax
Comm ’n v. Citizen Band Potawatomi Tribe of Okla., 498 U.S. 505, 509 (1991)). “As dependents,
the tribes are subject to plenary control by Congress. And yet they remain ‘separate sovereigns
pre-existing the Constitution. ’ Thus, unless and ‘until Congress acts, the tribes retain’ their historic
sovereign authority.” Id. (citing United States v. Lara, 541 U.S. 193, 200 (2004); Santa Clara
Pueblo v. Martinez, 436 U.S. 49, 56 (1978); United States v. Wheeler, 435 U.S. 313, 323 (1978)).

2 The Seminole Tribe of Florida “has long been recognized as an Indian tribe.” Inglish Interests, LLC, 2011
WL 208289, at *1.
8

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 9 of 23
Case No. 19-cv-62591-BLOOM/Valle
Among the core aspects of sovereignty that tribes possess — subject, again,
to congressional action — is the “common-law immunity from suit traditionally
enjoyed by sovereign powers.” Santa Clara Pueblo, 436 U.S. at 58. That
immunity ... is “a necessary corollary to Indian sovereignty and self-governance.”
Three Affiliated Tribes of Fort Berthold Reservation v. Wold Engineering, P.C.,
476 U.S. 877, 890 (1986); cf The Federalist No. 81, p. 511 (B. Wright ed. 1961)
(A. Hamilton) (It is “inherent in the nature of sovereignty not to be amenable” to
suit without consent). And the qualified nature of Indian sovereignty modifies that
principle only by placing a tribe’s immunity, like its other governmental powers
and attributes, in Congress’s hands. See United States v. U.S. Fidelity & Guaranty
Co., 309 U.S. 506, 512 (1940) (“It is as though the immunity which was theirs as
sovereigns passed to the United States for their benefit”).
Id. at 788-89. As such, “an Indian tribe is subject to suit only where Congress has authorized the
suit or the tribe has waived its immunity.” Kiowa Tribe of Okla. v. Mfg. Techs., Inc., 523 U.S. 751,
754 (1998) (emphasis added). Likewise, “[tjribal sovereign immunity, where it applies, bars
actions against tribes regardless of the type of relief sought.” Freemanville Water Sys., Inc. v.
Poarch Band ofCreek Indians, 563 F.3d 1205,1208 (11th Cir. 2009) (citing Kiowa Tribe of Okla.,
523 U.S. at 760 (barring suit for money damages); Fla. Paraplegic, Ass 'n, Inc. v. Miccosukee Tribe
ofIndians ofFla., 166 F.3d 1126, 1127 (11th Cir. 1999) (barring suit for injunctive relief)).3
“Abrogation requires a congressional determination that, as a matter of federal law, Indian
tribes shall be subject to certain kinds of suit. Waiver, on the other hand, occurs when the tribe
itself consents to the jurisdiction of the state or federal courts.” Furry, 685 F.3d at 1236 (citing
Tamiami Partners, Ltd. v. Miccosukee Tribe of Indians of Fla., 63 F.3d 1030, 1048 (11th Cir.
1995)). “Moreover, both abrogation and waiver require the use of express and unmistakably clear

3 « [C]ase law has

[also] extended Indian sovereign immunity to entities other than the literal ‘tribe.’” Inglish
Interests, LLC, 2011 WL 208289, at *6 (citing Taylor, 261 F.3d at 1036 (applying Indian sovereign
immunity to intertribal consortium)). “Tribal sovereign immunity may extend to subdivisions of a tribe,
including those engaged in economic activities, provided that the relationship between the tribe and the
entity is sufficiently close to properly permit the entity to share in the tribe’s immunity.” Breakthrough
Mgmt. Grp., Inc. v. Chukchansi Gold Casino & Resort, 629 F.3d 1173, 1183 (10th Cir. 2010) (footnote
omitted) (citing Native Am. Distrib. v. Seneca-Cayuga Tobacco Co., 546 F.3d 1288,1292 (10th Cir. 2008));
see also Allen v. Gold Country Casino, 464 F.3d 1044, 104647 (9th Cir. 2006) (recognizing that tribal
sovereign immunity extends to subordinate economic tribal entities); Ninigret Dev. Corp. v. Narragansett
Indian Wetuomuck Hous. Auth., 207 F.3d 21, 29 (1st Cir. 2000) (same).
9

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 10 of 23
Case No. 19-cv-62591-BLOOM/Valle
language by either Congress or the tribe.” Id. (citing Sanderlin v. Seminole Tribe ofFla., 243 F.3d
1282, 1286, 1289 (11th Cir. 2001); Florida v. Seminole Tribe of Fla., 181 F.3d 1237, 1241-43
(11th Cir. 1999); Fla. Paraplegic, Ass'n, Inc., 166 F.3d at 1130-31).
The Court of Appeals for the Eleventh Circuit has explained that “Congress abrogates tribal
immunity only where the definitive language of the statute itself states an intent either to abolish
Indian tribes’ common law immunity or to subject tribes to suit under the act.” Fla. Paraplegic,
Ass’n, Inc., 166 F.3d at 1131. Moreover, it is well established that “Congress may abrogate a
sovereign’s immunity only by using statutory language that makes its intention unmistakably clear,
and [any] ambiguities in federal laws implicating Indian rights must be resolved in the Indians’
favor.” Seminole Tribe of Fla., 181 F.3d at 1242 (citing Fla. Paraplegic

’n, Inc., 166 F.3d at

1131) (footnote omitted); Seminole Tribe ofFla. v. Florida, 517 U.S. 44,55-56 (1996) (“Congress’
intent to abrogate [tribal sovereign] immunity from suit must be obvious from ‘a clear legislative
statement.’” (quoting Blatchford v. Native Vill. ofNoatak, 501 U.S. 775, 786 (1991))).
“A general authorization for suit in federal court is not the kind of unequivocal statutory
language sufficient to abrogate” sovereign immunity. Atascadero State Hasp. v. Scanlon, 473 U.S.
234, 246 (1985). Similarly, “[t]he [United States] Supreme Court has made it plain that waivers of
tribal sovereign immunity cannot be implied on the basis of a tribe’s actions, but must be
unequivocally expressed.” Sanderlin, 243 F.3d at 1286 (quoting Seminole Tribe of Fla., 181 F.3d
at 1243 & n.8); see also Santa Clara Pueblo, 436 U.S. at 58; Okla. Tax Comm ’n, 498 U.S. at 509
(“Suits against Indian tribes are thus barred by sovereign immunity absent a clear waiver by the
tribe or congressional abrogation.”).
“To date, [the Supreme Court’s] cases have sustained tribal immunity from suit without
drawing a distinction based on where the tribal activities occurred.” Kiowa Tribe of Okla., 523
U.S. at 754; see also Bay Mills Indian Cmty., 572 U.S. at 785 (“[A]bsent such [a Congressional]
10

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 11 of 23
Case No. 19-cv-62591-BLOOM/Valle
abrogation (or a [tribal] waiver), Indian tribes have immunity even when a suit arises from offreservation commercial activity.”). Likewise, the Supreme Court has not yet “drawn a distinction
between governmental and commercial activities of a tribe.” Kiowa Tribe of Okla., 523 U.S. at
754-55; see also Bay Mills Indian Cmty., 572 U.S. at 800 (noting that the Supreme Court, in Kiowa
Tribe of Oklahoma, “‘decline[d] to draw any distinction’ that would ‘confine [tribal sovereign
immunity] to reservations or to noncommercial activities’” (quoting Kiowa Tribe of Okla., 523
U.S. at 758)). Similarly, the Eleventh Circuit has held that tribal sovereign immunity applied,
where there was no tribal waiver or Congressional abrogation of this immunity, in a case alleging
that the Seminole Tribe of Florida’s gambling operations on its reservation violated various
criminal laws. Seminole Tribe ofFla., 181 F.3d at 1240, 1243-44, 1245; see also Alabama v. PCI
Gaming Auth., 801 F.3d 1278, 1300 (11th Cir. 2015) (holding that a tribe is entitled to sovereign
immunity in a suit alleging violations of criminal laws on the reservation).
The Eleventh Circuit has also rejected the argument that “tribal [sovereign] immunity
[must give way to] federal jurisdiction when no other forum is available for the resolution of
claims.” Seminole Tribe ofFla., 181 F.3dat 1243 (citing Fluent v. Salamanca Indian Lease Auth.,
928 F.2d 542, 547 (2d Cir. 1991) (rejecting this proposition); Ute Distrib. Corp. v. Ute Indian
Tribe, 149 F.3d 1260, 1266 n.8 (10th Cir. 1998) (“The proposition that tribal immunity is waived
if a party is otherwise left without a judicial remedy is inconsistent with the reasoning of Santa
Clara Pueblo.")', Makah Indian Tribe v. Verity, 910 F.2d 555, 560 (9th Cir. 1990) (“Sovereign
immunity may leave a party with no forum for its claims.”); Florida Paraplegic Ass 'n, Inc., 166
F.3d at 1134 (implying that lack of forum in which to pursue claim has no bearing on tribal
sovereign immunity analysis)).
In this case, it is undisputed that Defendant Seminole Tribe did not expressly waive its
immunity from suit. See, e.g, ECF No. [21] H 11. Further, “waivers of tribal sovereign immunity
11

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 12 of 23
Case No. 19-cv-62591-BLOOM/Valle
cannot be implied on the basis of a tribe’s actions, but must be unequivocally expressed.”
Sanderlin, 243 F,3d at 1286 (quoting Seminole Tribe ofFla., 181 F.3d at 1243 & n.8). Likewise,
Plaintiffs cite to no statutory language in § 248 that evidences any clear and unequivocal
Congressional intent to abrogate tribal sovereign immunity, nor did the Court independently find
any such language. Fla. Paraplegic, Ass'n, Inc., 166 F.3d at 1131. Absent some definitive
language making it unmistakably clear that Congress intended to abrogate tribal sovereign
immunity in enacting the FACE Act, the Court concludes that Defendant Seminole Tribe is entitled
to immunity from suit in the instant action.4
Further, the Court is unpersuaded by Plaintiffs’ arguments with regard to the inapplicability
of tribal sovereign immunity for off-reservation criminal tribal conduct. As explained above, the
Supreme Court has repeatedly emphasized that tribal sovereign immunity applies regardless of
where the challenged tribal actions occurred. See Kiowa Tribe of Okla., 523 U.S. at 754; see also
Bay Mills Indian Cmty., 572 U.S. at 785. The Supreme Court has also never drawn a distinction
on the application of this immunity from suit based on the nature of the challenged actions. Kiowa
Tribe of Okla., 523 U.S. at 754-55; see also Bay Mills Indian Cmty., 572 U.S. at 800. Likewise, in
Seminole Tribe ofFlorida, the Eleventh Circuit affirmed the district court’s holding that sovereign
immunity barred a suit against a tribe for alleged violations of criminal laws on the tribe’s
reservation. 181 F.3d at 1240, 1243-44, 1245; see also PCI Gaming Auth., 801 F.3d at 1300.
Notably, while Plaintiffs represent that they have found no case extending immunity from suit to
off-reservation criminal tribal actions, they also provide no case law that supports limiting such

4 See, e.g., Furry, 685 F.3d at 1233 (“Moreover, [Eleventh Circuit] case law is clear that congressional
abrogation must come from ‘the definitive language of the statute itself and that ‘legislative history and
inferences from general statutory language are insufficient.’ Nowhere in the text of [the statute] is there any
mention of tribal immunity from suit, much less an express and unequivocal abrogation of tribal immunity
with respect to private lawsuits alleging that an Indian tribe has violated state tort law. Congress well
understood how to expressly subject an Indian tribe to private suit in state or federal court; it simply did not
do so by enacting [this statute].” (quoting Fla. Paraplegic, Ass ’n, Inc., 166 F.3d at 1131)).
12

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 13 of 23
Case No. 19-cv-62591-BLOOM/Valle
immunity in this case. See Phillips v. Hillcrest Medical Ctr., 244 F.3d 790, 800 n.10 (10th Cir.
2001) (“A litigant who fails to press a point by supporting it with pertinent authority, or by showing
why it is sound despite a lack of supporting authority or in the face of contrary authority, forfeits
the point. [The Court] will not do his research for him.” (citation omitted)).
Absent any authority to the contrary, this Court concludes that Plaintiffs have failed to
satisfy their burden of establishing jurisdiction here. See Furry, 685 F.3d at 1236 (“Cobbling
together a new exception to tribal immunity would directly conflict with the Supreme Court’s
straightforward doctrinal statement, repeatedly reiterated in the holdings of this Circuit, that an
Indian tribe is subject to suit in state or federal court “only where Congress has authorized the suit
or the tribe has waived its immunity.” (quoting Kiowa Tribe of Okla., 523 U.S. at 754)). Thus,
Defendant Seminole Tribe is entitled to tribal sovereign immunity in the instant action based on
the extensive case law from both the Supreme Court and the Eleventh Circuit establishing that an
Indian tribe is entitled to immunity from suit unless there is a clear waiver by the tribe or some
unequivocal statutory abrogation of such immunity by Congress. See Kiowa Tribe of Okla., 523
U.S. at 754; Bay Mills Indian Cmty., 572 U.S. at 785; Furry, 685 F.3d at 1233; Sanderlin, 243
F.3d at 1286 (quoting Seminole Tribe of Fla., 181 F.3d at 1243 & n.8); Fla. Paraplegic, Ass'n,
Inc., 166 F.3d at 1131.5 Accordingly, Defendant Seminole Tribe is dismissed from this action.
B. Defendant Auguste’s Motion to Dismiss
In Auguste’s Motion, Defendant Auguste argues that Plaintiffs’ Amended Complaint
should be dismissed because it fails to state a claim under 18 U.S.C. § 248(a)(2) and it asserts
claims on non-justiciable questions of church governance. Similarly, Defendant Auguste argues
that the Amended Complaint should be dismissed due to the improper claim splitting between state

5 Further, Defendants are correct in noting that, where alternative avenues through which a party may seek
legal redress exist, as is the case here given Plaintiffs’ ongoing state court action, sovereign immunity is
not waived. ECF No. [21] ^ 9; see also Seminole Tribe ofFla., 181 F.3d at 1243-44.
13

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 14 of 23
Case No. 19-cv-62591-BLOOM/Valle
and federal courts. Plaintiffs take the contrary position, arguing that the Amended Complaint
sufficiently alleges facts to support a claim under § 248(a)(2). Moreover, Plaintiffs state that they
do not seek judicial resolution of non-justiciable doctrinal affairs; rather, they seek only to
vindicate their rights under the FACE Act. Before the Court can examine the merits of Defendant
Auguste’s arguments, it must first address the threshold jurisdictional issue of whether Plaintiffs’
Amended Complaint raises non-justiciable questions of internal church governance.6
The Supreme Court and the Eleventh Circuit have explained that under the principles of
separation of church and state, “[cjivil courts lack jurisdiction to entertain disputes involving
church doctrine and polity.” Myhre v. Seventh-Day Adventist Church Reform Movement Am.
Union Int’l Missionary Soc’y, 719 F. App’x 926, 928 (11th Cir.), cert, denied, 139 S. Ct. 175
(2018). The First Amendment states that “Congress shall make no law respecting an establishment
of religion, or prohibiting the free exercise thereof.” U.S. Const, amend. I. “[Cjivil actions
involving ecclesiastical disputes implicate both the Establishment and Free Exercise Clauses” of
the First Amendment. Myhre, 719 F. App’x at 928 (citing Crowder v. S. Baptist Convention, 828
F.2d 718, 721 (11th Cir. 1987)).
“By adjudicating religious disputes, civil courts risk affecting associational conduct
and thereby chilling the free exercise of religious beliefs. Moreover, by entering
into a religious controversy and putting the enforcement power of the state behind
a particular religious faction, a civil court risks ‘establishing’ a religion.” [Crowder,
828 F.2d at 721.] These concerns require civil courts to abstain from deciding issues
connected to “theological controversy, church discipline, ecclesiastical
government, or conformity of members of the church to the standard of morals
required of them,” id. at 722 (quoting Watson v. Jones, 20 L. Ed. 666 (1871)), and

6 Although the arguments for dismissal in Auguste’s Motion are raised pursuant to Rule 12(b)(6), the non­
justiciability of matters of ecclesiastical cognizance presents jurisdictional issues that this Court has an
independent obligation to address. See Hallandale Profl Fire Fighters Local 2238 v. City of Hallandale,
922 F.2d 756, 759 (11th Cir. 1991) (“Before rendering a decision, . . . every federal court operates under
an independent obligation to ensure it is presented with the kind of concrete controversy upon which its
constitutional grant of authority is based; and this obligation on the court to examine its own jurisdiction
continues at each stage of the proceedings, even if no party raises the jurisdictional issue and both parties
are prepared to concede it.” (citing FW/PBS, Inc. v. City of Dallas, 493 U.S. 215 (1990))).

14

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 15 of 23
Case No. 19-cv-62591-BLOOM/Valle
to accept as binding the decisions of religious organizations regarding the
governance and discipline of their clergy.
Id.
Therefore, as a general rule, “religious controversies are not the proper subject of civil
court inquiry,” and “courts are bound to accept the decisions of the highest judicatories of a
religious organization of hierarchical polity on matters of discipline, faith, internal organization,
or ecclesiastical rule, custom, or law.” Serbian E. Orthodox Diocese for the U.S. ofAm. & Can. v.
Milivojevich, 426 U.S. 696, 713 (1976); see also Md. & Va. Eldership of Churches of God v.
Church of God at Sharpsburg, Inc., 396 U.S. 367, 369 (1970) (Brennan, J., concurring) (“To
permit civil courts to probe deeply enough into the allocation of power within a church so as to
decide where religious law places control over the use of church property would violate the First
Amendment in much the same manner as civil determination of religious doctrine.”).
Moreover, the First Amendment requires that civil courts decide religious disputes
“without resolving underlying controversies over religious doctrine,” Presbyterian Church v.
Mary Elizabeth Blue Hull Memorial Presbyterian Church, 393 U.S. 440, 449 (1969), and this
principle “applies with equal force to church disputes over church polity and church
administration,” Milivojevich, 426 U.S. at 710; see also Kedroff v. St. Nicholas Cathedral of
Russian Orthodox Church in N. Am., 344 U.S. 94, 114-15 (1952) (noting that the rule against
judicial review of religious disputes “is applicable to ‘questions of discipline, or of faith, or of
ecclesiastical rule, custom, or law.’” (quoting Watson, 20 L. Ed. 666)). As such, “[c]ivil courts
may apply neutral principles of law to decide church disputes that ‘involve^ no consideration of
doctrinal matters.’” Myhre, 719 F. App’x at 928 (quoting Jones v. Wolf, 443 U.S. 595, 602, 603
(1979)); see also Crowder, 828 F.2d at 722 (“The [Supreme] Court’s decisions . .. [have]
recognized that where the method of resolution of the controversy avoids excessively entangling
the judiciary in questions of ecclesiastical doctrine or belief, the [F]irst [Ajmendment might permit
15

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 16 of 23
Case No. 19-cv-62591-BLOOM/Valle
a court to adjudicate the matter.” (footnote omitted) (citing Presbyterian Church, 393 U.S. 440;
Jones, 443 U.S. 595)).
With these First Amendment concerns in mind, the Supreme Court has explained that “civil
courts may not decide .. . whether [a] church complied with the procedural rules contained in the
church constitution and penal code in defrocking one of its bishops.” Crowder, 828 F.2d at 725
(citing Milivojevich, 426 U.S. at 721-24). Nor may courts “use the guise of the ‘neutral principles’
approach to delve into issues concerning whether the general church acted beyond its authority
under the church constitution in declaring a reorganization of the diocese.” Id. (citing Milivojevich,
426 U.S. at 721-24). “Similarly, where the identity of the governing body or bodies that exercise
general authority within a church is a matter of substantial controversy, civil courts are not to make
the inquiry into religious law and usage that would be essential to the resolution of the
controversy.” Church of God at Sharpsburg, Inc., 396 U.S. at 369-70. “[Questions of church
discipline and the composition of the church hierarchy are at the core of ecclesiastical concern.”
Milivojevich, 426 U.S. at 717.
Furthermore, “[disputes among church members over the control of church property arise
almost invariably out of disagreements regarding doctrine and practice. Because of the religious
nature of these disputes, civil courts should decide them according to principles that do not
interfere with the free exercise of religion.” Jones, 443 U.S. at 616 (citing Milivojevich, 426 U.S.
at 709, 720; Presbyterian Church, 393 U.S. at 445-446, 449; Kedroff, 344 U.S. at 107, 121-22).
“The only course that achieves this constitutional requirement is acceptance by civil courts of the
decisions reached within the polity chosen by the church members themselves.” Id. at 617.
Likewise, “[a] dispute involving the application of church doctrine and procedure to
discipline one of its members is not appropriate for secular adjudication.” Myhre, 719 F. App’x at
928 (citing Milivojevich, 426 U.S. at 723; Crowder, 828 F.2d at 726). “[WJhere a religious body
16

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 17 of 23
Case No. 19-cv-62591-BLOOM/Valle
adjudicates relations among its members, courts will not interfere with the decisions of those
bodies made in accordance with those bodies’ rules.” Grunwald v. Bornfreund, 696 F. Supp. 838,
840 (E.D. N.Y. 1988) (citing Gonzalez v. Archbishop, 280 U.S. 1 (1929); Bouldin v. Alexander,
21 L. Ed. 69 (1872); Watson, 20 L. Ed. 666); see also Ram v. Lai, 906 F. Supp. 2d 59, 70 (E.D.
N.Y. 2012) (collecting cases); Askew v. Trustees of the Gen. Assembly of the Church of the Lord
Jesus Christ of the Apostolic Faith, Inc., 776 F. Supp. 2d 25, 30-31 (E.D. Pa. 2011), aff'd, 684
F.3d 413 (3d Cir. 2012).
“[A]n indispensable part of any church is the collection of individuals who have joined
together in worship and constitute the church’s membership.” Burgess v. Rock Creek Baptist
Church, 734 F. Supp. 30, 33 (D.D.C. 1990). A religious organization’s “own internal guidelines
and procedures must be allowed to dictate what its obligations to its members are without being
subject to court intervention.. . . [These] [r]eligious bodies must be free to decide for themselves,
free from state interference, matters which pertain to church government, faith and doctrine.”
Dowd v. Society of St. Columbans, 861 F.2d 761, 764 (1st Cir. 1988) (per curiam) (citations
omitted); see also Corp. of Presiding Bishop of Church of Jesus Christ of Latter-day Saints v.
Amos, 483 U.S. 327, 342 (1987) (Brennan, J., concurring in judgment) (“Determining that certain
activities are in furtherance of an organization’s religious mission, and that only those committed
to that mission should conduct them, is [] a means by which a religious community defines itself.”).
“For essentially the same reasons that courts have refused to interfere with the basic
ecclesiastical decision of choosing the minister or priest of a church,” courts have also refused to
“interfere with the fundamental ecclesiastical concern of determining who is and who is not [a
church] member.” Burgess, 734 F. Supp. at 33 (citing Minker v. Baltimore Annual Conference of
United Methodist Church, 894 F.2d 1354, 1356-57 (D.C. Cir. 1990); Natal v. Christian &
Missionary All, 878 F.2d 1575, 1576-77 (1st Cir. 1989); Hutchison v. Thomas, 789 F.2d 392, 393,
17

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 18 of 23
Case No. 19-cv-62591-BLOOM/Valle
396 (6th Cir. 1986); Kaufmann v. Sheehan, 707 F.2d 355, 358-59 (8th Cir. 1983)). If a religious
body’s “decision to terminate [a] plaintiffs membership was a matter of ecclesiastical cognizance,
the First Amendment and Supreme Court case law preclude” adjudication of the plaintiff s claims
in federal court. Id. “The mere expulsion from a religious society, with the exclusion from a
religious community, is not a harm for which courts can grant a remedy.” Grunwald, 696 F. Supp.
at 840-41; see also Paul v. WatchtowerBible & Tract Soc'y, 819 F.2d 875, 879-83 (9th Cir. 1987)
(even if conduct was tortious, Jehovah’s Witnesses’ “shunning” of disassociated member was part
of church’s polity and was a privileged religious practice under First Amendment). “Thus, federal
courts will not interfere with the decisions of a religious body adjudicating the relationships of
members in that body; as a matter of jurisprudence federal courts will defer to the decision of the
religious body.” Grunwald, 696 F. Supp. at 840.
“Put simply, ‘[a] civil court presiding over church disputes must be particularly careful not
to violate the Free Exercise and Establishment Clauses by ruling against one party and for the other
party based on the court’s resolution of the underlying controversy over religious doctrine and
practice.’” Ram, 906 F. Supp. 2d at 70 (quoting Burgess, 734 F. Supp. at 31). In doing so, a court
must “look to the substance and effect of [the] plaintiffs’ complaint, not its emblemata. Howsoever
a suit may be labelled, once a court is called upon to probe into a religious [dispute,] ... the First
Amendment is implicated.” Natal, 878 F.2d at 1577.
Here, the Court concludes that any adjudication of the claims asserted in Plaintiffs’
Amended Complaint would violate the First Amendment because it “would require judicial
intrusion into, rules, policies, and decisions which are unmistakably of ecclesiastical cognizance.”
Id. Contrary to Plaintiffs’ contentions that their FACE Act claims do not involve non-justiciable
questions of church governance, the foundational issue that must be resolved before addressing
the merits of the claims is whether Defendant Auguste had the authority to exclude Plaintiffs from
18

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 19 of 23
Case No. 19-cv-62591 -BLOOM/Valle
church property as Pastor Auguste’s rightful successor. Questions of church government are
fundamentally ecclesiastical in nature. Milivojevich, 426 U.S. at 717 (“[Qjuestions of church
discipline and the composition of the church hierarchy are at the core of ecclesiastical concern.”);
Church of God at Sharpsburg, Inc., 396 U.S. at 369 (Brennan, J., concurring) (“To permit civil
courts to probe deeply enough into the allocation of power within a church so as to decide where
religious law places control over the use of church property would violate the First Amendment in
much the same manner as civil determination of religious doctrine.”).7
Further, “the principles governing the separation of church and state extend to [a religious
organization’s] decision to exclude [a] plaintiff from entering its property.” Towns v. Cornerstone
Baptist Church, No. 14-cv-6809, 2015 WL 13738012, at *3 (E.D. N.Y. July 20, 2015), report and
recommendation adopted sub nom. Towns v. Church, No. 14-cv-6809, 2016 WL 792406, at *1
(E.D. N.Y. Feb. 29, 2016). Therefore, a religious organization’s “decision to exclude [a] plaintiff
from its property, and thereby from its religious services and events, is a decision of ecclesiastical
cognizance which cannot be disturbed by a federal court.” Id. Likewise, decisions by a religious
body to terminate a plaintiff’s membership are of a “fundamental[ly] ecclesiastical concern.”
Burgess, 734 F. Supp. at 33.

7 See also Jones, 443 U.S. at 616 (“Disputes among church members over the control of church property
arise almost invariably out of disagreements regarding doctrine and practice. Because of the religious nature
of these disputes, civil courts should decide them according to principles that do not interfere with the free
exercise of religion.”); Milivojevich, 426 U.S. at 710 (explaining that the principle that federal courts should
not decide religious disputes “applies with equal force to church disputes over church polity and church
administration”); Church of God at Sharpsburg, Inc., 396 U.S. at 369-70 (“[W]here the identity of the
governing body or bodies that exercise general authority within a church is a matter of substantial
controversy, civil courts are not to make the inquiry into religious law and usage that would be essential to
the resolution of the controversy.”); Crowder, 828 F.2d at 725 (noting that courts may not “use the guise of
the ‘neutral principles’ approach to delve into issues concerning whether the general church acted beyond
its authority under the church constitution in declaring a reorganization of the diocese” (citing Milivojevich,
426 U.S. at 721-24)).
19

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 20 of 23
Case No. 19-cv-62591-BLOOM/Valle
Ultimately, Defendant Auguste’s decision to exclude Plaintiffs from church property and
the ensuing events are so inextricably intertwined with matters of church governance,
administration, and membership — regardless of the legal theories presented — that the
adjudication of such issues would “excessively entangle [e] the judiciary in [ecclesiastical]
questions.” Crowder, 828 F.2d at 722. Any adjudication of Plaintiffs’ claims in the instant action
would “violate the Free Exercise and Establishment Clauses by ruling against one party and for
the other party based on the [C]ourt’s resolution of the underlying controversy over religious
doctrine and practice.” Ram, 906 F. Supp. 2d at 70 (quoting Burgess, 734 F. Supp. at 31). Because
this Court cannot, consistent with the First Amendment, entertain issues concerning church
governance, administration, or polity, Milivojevich, 426 U.S. at 710; Myhre, 719 F. App’x at 929,
Plaintiffs’ Amended Complaint must be dismissed.
C. Plaintiffs’ Motion to Amend
Finally, Plaintiffs’ Motion to Amend requests leave to file a Second Amended Complaint
to correct typographical mistakes, drop the claims of tortious interference and trespass, add a claim
for injunctive relief, drop and add certain individuals as Plaintiffs, and name seventeen additional
individuals as Defendants. Defendant Auguste opposes the Motion to Amend, arguing that
allowing Plaintiffs to file the Second Amended Complaint would be futile because the amended
pleading will nonetheless be subject to dismissal as a matter of non-justiciable church governance.
Defendant Seminole Tribe also opposes the Motion to Amend, noting that granting leave to amend
would be futile due to Defendant Seminole Tribe’s entitlement to tribal sovereign immunity.
Generally, a district court should freely grant leave to amend pleadings when justice so
requires. Fed. R. Civ. P. 15(a)(2). However, as noted above, leave to amend need not be given if
amendment would be futile. Bryant, 252 F.3d at 1163. “[DJenial of leave to amend is justified by
futility when the ‘complaint as amended is still subject to dismissal.’” Burger King Corp. v. Weaver,
20

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 21 of 23
Case No. 19-cv-62591-BLOOM/Valle
169 F.3d 1310, 1320 (11th Cir. 1999); see Dysart v. BankTrust, 516 F. App’x 861, 865 (11th Cir.
2013) (same^iS/, Charles Foods, Inc. v. Am.’s Favorite Chicken Co., 198 F.3d815, 822-23 (11th Cir.
1999) (“When a district court denies the plaintiffleave to amend a complaint due to futility, the court
is making the legal conclusion that the complaint, as amended, would necessarily fail.”). “The futility
threshold is akin to that for a motion to dismiss; thus, if the amended complaint could not survive
Rule 12(b)(6) scrutiny, then the amendment is futile and leave to amend is properly denied.” Bill
Salter Advert., Inc. v. CityofBrewton, Ala., 2007 WL 2409819, at *2 (S.D. Ala. Aug.23,2007) (citing
Fla. Power & Light Co. v. Allis Chalmers Corp., 85 F.3d 1514, 1520 (11th Cir. 1996) (amendment is
futile if cause of action asserted therein could not withstand motion to dismiss)).
Based on the analysis above, the Court concludes that permitting any further amendment
would be futile in this case. It is clear that Plaintiffs’ Second Amended Complaint would not
survive a motion to dismiss due to the same issues discussed above with regard to tribal sovereign
immunity and the non-justiciable questions of church governance. In comparing Plaintiffs’
Amended Complaint with the proposed Second Amended Complaint attached to their Motion to
Amend, the Court concludes that the claims asserted in both amended pleadings raise similar
claims and tell “essentially the same story.” Crawford's Auto Ctr., Inc. v. State Farm Mut. Auto.
Ins. Co., No. 17-12583, 2019 WL 6974428, at *7 (11th Cir. Dec. 20, 2019) (citing Hall, 367 F.3d
at 1263 (affirming dismissal “because the three new claims asserted, like those in [the] first
amended complaint, would have been subject to dismissal as a matter of law”)). The Second
Amended Complaint asserts claims under the FACE Act that similar to those asserted in the
Amended Complaint. See generally ECF No. [25-1]. The primary difference between these
pleadings is that the Second Amended Complaint asserts such claims against Defendant Auguste,
Defendant Seminole Tribe, and the seventeen additional church-member Defendants who
accompanied Defendant Auguste to seize control of the church property. Id. This proposed Second
21

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 22 of 23
Case No. 19-cv-62591-BLOOM/Valle
Amended Complaint, like Plaintiffs’ Amended Complaint, would still be subject to dismissal as a
matter of law based on tribal sovereign immunity and the non-justiciability of ecclesiastical
questions.
In their Notice of Supplemental Authority, Plaintiffs cite to Crawford’s Auto Center, Inc.
for the proposition that “a proposed amended complaint is ‘futile’ when the District Court has
previously involuntarily dismissed a similar complaint pursuant to rule 12(b)(6).” ECF No. [34] at
2. Plaintiffs argue that their Motion to Amend therefore may not be denied on grounds of futility
because this Court has not involuntarily dismissed any of Plaintiffs’ complaints. However, as
detailed in the analysis above on the two Motions to Dismiss, the Court concludes that Plaintiffs’
Amended Complaint must be dismissed as a matter of law. As such, the Eleventh Circuit’s holding
in Crawford's Auto Center, Inc. that Plaintiffs rely upon in their Notice of Supplemental Authority
does not affect this Court’s conclusion that the Motion to Amend must be denied because granting
Plaintiffs leave to file the Second Amended Complaint would be futile in this case.
IV. CONCLUSION
Accordingly, it is ORDERED AND ADJUDGED as follows:
1. Defendant Seminole Tribe of Florida’s Motion to Dismiss, ECF No. [28], is
GRANTED.
2. Defendant Aida Auguste’s Motion to Dismiss, ECF No. [26], is GRANTED.
3. Plaintiffs’ Motion for Leave to File a Second Amended Complaint, ECF No. [25],
is DENIED.
4. The above-styled action is DISMISSED WITH PREJUDICE.
5. To the extent not otherwise disposed of, any scheduled hearings are CANCELED,
all pending motions are DENIED AS MOOT, and all deadlines are
TERMINATED.
22

Case 0:19-cv-62591-BB Document 50 Entered on FLSD Docket 01/03/2020 Page 23 of 23
Case No. 19-cv-62591-BLOOM/Valle
6. The Clerk of Court is directed to CLOSE this case.
DONE AND ORDERED in Chambers at Miami, Florida, on January 3, 2020.

BETH BLOOM
UNITED STATES DISTRICT JUDGE
Copies to:
Counsel of Record

23

